February 28, 2002

PATRICK R. DONAHOE
CHIEF OPERATING OFFICER AND EXECUTIVE VICE PRESIDENT

JOHN A. RAPP
SENIOR VICE PRESIDENT, OPERATIONS

SUBJECT: 	Audit Report – Critical Factors and Best Practices for Managing External
          First-Class Mail Measurement System Scores
          (Report Number TD-AR-02-001)

This report presents the results of our audit of Critical Factors and Best Practices for
Managing External First-Class Mail Measurement System Scores (Project
Number 00NA008DE000). The report responds to a request from the Board of
Governors. Our objectives were to: (1) identify factors potentially affecting External
First-Class Mail Measurement System scores; and (2) determine whether the Postal
Service is identifying, assessing, and sharing information on a nationwide basis, related
to best practices which impact First-Class Mail service and scores.

Postal Service officials in the five clusters visited identified factors, which they believed
were critical to meeting External First-Class Mail Measurement System service standard
scores. The critical factors included commercial airline performance; mail preparation,
condition and arrival times; adequate facilities; and management stability and staffing.
Officials also offered practices that were implemented in efforts to control the factors
affecting External First-Class Mail Measurement System service standard scores. We
also found that the Postal Service has no formal mechanism for identifying, assessing,
and sharing best practices affecting service standards on a nationwide basis. Sharing
best practice information on a nationwide basis may provide more consistent and
improved service standard scores nationwide. We recommended that management
facilitate nationwide identification and sharing of best practice information.
Management commented on our report and agreed with all of our findings and with our
recommendation. Management’s comments and our evaluation of these comments are
included in the report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joseph R. Oliva
director, Transportation and Delivery, at (703) 248-2100 or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Core Operations

cc: 	Henry A. Pankey
     Paul E. Vogel
     Francia G. Smith
     John R. Gunnels
Critical Factors and Best Practices for Managing                         TD-AR-02-001
 External First-Class Mail Measurement System Scores


                                  TABLE OF CONTENTS 

Executive Summary
                                                            i


Part I 


Introduction 
                                                               1

   Background                                                                1
   Objectives, Scope and Methodology                                         1

   Prior Audit Coverage                                                      3


Part II

Audit Results                                                                4


   Factors Identified as Critical to Meeting Service Standards               4


   Best Practices for Controlling Factors Affecting Service Standard 

    Scores                                                                   9         

   Recommendation                                                           12
   Management’s Comments                                                    13 

   Evaluation of Management’s Comments                                      13 


Appendix. Management’s Comments                                             14     





                                        Restricted Information
Critical Factors and Best Practices for Managing                                   TD-AR-02-001
 External First-Class Mail Measurement System Scores


                                  EXECUTIVE SUMMARY
Introduction 	               In 1990, the Postal Service contracted to measure
                             First-Class Mail service performance from a customer
                             perspective through its External First-Class Mail
                             Measurement System. The system was designed to
                             measure the degree to which the Postal Service meets
                             service standards to deliver overnight, 2-day, and 3-day
                             mail to customers. The system supports the Postal Service
                             strategic goal of providing timely mail delivery to customers.

                             We initiated this audit based on the Governors' interest.
                             Our objectives were to: (1) identify factors potentially
                             affecting External First-Class Mail Measurement System
                             scores; and (2) determine whether the Postal Service is
                             identifying, assessing, and sharing information on a
                             nation-wide basis, related to best practices which impact
                             First-Class Mail service and scores.

Results in Brief 	           Postal Service officials in the five clusters visited identified
                             factors, which they believed were critical to meeting
                             External First-Class Mail Measurement System service
                             standard scores. The critical factors included commercial
                             airline performance; mail preparation, condition and arrival
                             times; adequate facilities; and management stability and
                             staffing. Officials also offered practices that were
                             implemented in an effort to control the factors affecting
                             External First-Class Mail Measurement System service
                             standard scores. Although these practices alone cannot
                             ensure improved service standard scores, they reflect
                             positive efforts that other Postal Service clusters may want
                             to consider in addressing critical factors in meeting service
                             standards and for achieving more consistent and improved
                             External First-Class Mail Measurement System service
                             standard scores.

                             We found that the Postal Service has no formal mechanism
                             for identifying, assessing, and sharing best practices
                             affecting service standard scores on a nationwide basis.
                             While informal processes may exist for clusters to share
                             information on practices, establishing a formal process for
                             sharing information may identify opportunities for more
                             consistent and improved service standard scores
                             nationwide.




                                                   i
                                        Restricted Information
Critical Factors and Best Practices for Managing                               TD-AR-02-001
 External First-Class Mail Measurement System Scores




Summary of 	                 The Postal Service could derive benefits of improved and
Recommendations 	            more consistent External First-Class Mail Measurement
                             System service standard scores by facilitating the
                             nationwide identification and sharing of best practice
                             information.

Summary of                   Management agreed with all our findings and
Management’s                 recommendation. They acknowledged there were no
Comments                     nationwide mechanisms for identifying, assessing, and
                             sharing best practices. However, they stated they would
                             utilize existing national websites to display proven service
                             improvement practices, and would integrate those practices
                             into ongoing standardization and productivity improvement
                             efforts. Management’s comments, in their entirety, are
                             included in the appendix of this report.

Overall Evaluation of        Management’s comments are responsive to our findings
Management’s                 and recommendation. We believe the actions management
Comments                     has taken or planned will effectively address issues we
                             identified in our report.




                                                   ii
                                        Restricted Information
Critical Factors and Best Practices for Managing                                   TD-AR-02-001
 External First-Class Mail Measurement System Scores


                                       INTRODUCTION
Background                   The Postal Reorganization Act of 1970 defines the mission
                             of the Postal Service and charges the Postal Service, in
                             part, to offer prompt, reliable, and efficient service to patrons
                             in all areas. In accomplishing its mission, the Postal Service
                             developed “Voice of the Customer” goals for timely,
                             consistent, and accurate delivery of all categories of mail,
                             and achievement of high levels of customer satisfaction.

                             In 1990, the Postal Service contracted to measure
                             First-Class Mail service performance from a customer
                             perspective through the External First-Class Mail
                             Measurement System. The system is part of the Transit
                             Time Measurement System independently administered by
                             PriceWaterhouseCoopers through a contract with oversight
                             provided by the Postal Service's vice president and
                             consumer advocate.

                             The External First-Class system is an external
                             measurement system of collection box to mailbox delivery
                             performance. The system continuously tests a panel of
                             463 ZIP Code areas selected on the basis of geographic
                             and volume density from which 90 percent of First-Class
                             volume originates and 80 percent destinates. It is not a
                             system wide measurement of all First-Class Mail
                             performance.

                             External First-Class Mail Measurement System scores
                             varied among Postal Service clusters during our review
                             period. Average yearly 2 and 3-day scores among all
                             clusters varied by as much as 26.51 percent in fiscal year
                             (FY) 1997, 27.36 percent in FY 1998, 20.53 percent in
                             FY 1999, and 32.44 percent in FY 2000. Among the
                             five clusters visited, average yearly scores varied by as
                             much as 11.87 percent in FY 1997, 8.86 percent in
                             FY 1998, 8.33 percent in FY 1999 and 8.48 percent in
                             FY 2000.

Objectives, Scope            The objectives of the audit were to: (1) identify factors
and Methodology              potentially affecting External First-Class Mail Measurement
                             System scores; and (2) determine whether the Postal
                             Service is identifying, assessing, and sharing information on
                             a nationwide basis, related to best practices, which impact
                             First-Class Mail service and scores.



                                                   1
                                        Restricted Information
Critical Factors and Best Practices for Managing                                                    TD-AR-02-001
 External First-Class Mail Measurement System Scores



                                  To achieve our first objective, we downloaded quarterly
                                  scores for FYs 1997 through 2000 from the Postal Service's
                                  Web Enterprise Information System. We identified those
                                  clusters with the highest yearly average increase
                                  (10 percent or higher) in 2 to 3-day originating and
                                  destinating composite scores; those with less than
                                  10 percent but greater than 5 percent increase; and those
                                  with the lowest yearly average increase (5 percent or lower)
                                  for the period. We judgmentally selected four clusters
                                  considering their geographical composition,1 size, and
                                  percentage change in scores. We selected the Chicago
                                  and Appalachian clusters, in part, because they had an
                                  average yearly increase in scores of greater than
                                  10 percent. San Jose and Albuquerque clusters were also
                                  selected, and had yearly average score increases of below
                                  5 percent. An additional cluster, Atlanta, was selected as a
                                  survey site, and had an average yearly score increase of
                                  about 10 percent.

                                  We also conducted site visits to each cluster and respective
                                  area2 and interviewed officials to identify potential factors
                                  and initiatives affecting the core First-Class Mail processes
                                  --collection, transportation, processing, and delivery--which
                                  could potentially impact scores. We obtained available
                                  support for factors or initiatives that were identified as
                                  potentially impacting service and scores. We observed
                                  First-Class Mail processes when possible. However, we did
                                  not attempt to validate all information provided nor
                                  determine the direct impact of any one factor or initiative on
                                  scores, since doing so was outside the scope of this audit.
                                  In addition, External First-Class Mail Measurement System
                                  scores are only indicators of timely mail delivery
                                  performance, and the system does not assess the
                                  effectiveness of the processes used to deliver mail.

                                  To achieve the second objective, we conducted interviews
                                  with appropriate Postal Service Headquarters, area, and
                                  cluster officials to determine any current methods for
                                  identifying and sharing best practices. We also reviewed


1
  By using geographical composition, we selected clusters representing major metropolitan cities, large cities, and
rural areas.
2
  An area is an administrative field unit, one level below Postal Service Headquarters, and which oversees customer
service districts/clusters.



                                                         2
                                              Restricted Information
Critical Factors and Best Practices for Managing                              TD-AR-02-001
 External First-Class Mail Measurement System Scores



                             Postal Service and related websites to determine the extent
                             and availability of best practice information.

                             This audit was conducted from July 2000 through
                             February 2002 in accordance with generally accepted
                             government auditing standards, and such included tests of
                             internal controls, as were considered necessary under the
                             circumstances. We discussed our conclusions and
                             observations with appropriate management officials and
                             included their comments, where appropriate.

Prior Audit Coverage 	 The Postal Inspection Service conducted a National
                       Coordination Audit (jointly with the Office of Inspector
                       General (OIG)) and issued a report (Case Number 029-
                       1217904-PA 9) in February 1998. The report compared
                       management practices in cities measured by the External
                       First-Class Mail Measurement System and practices in
                       those cities not measured. The report disclosed practices
                       implemented to benefit candidate mail to the detriment of
                       noncandidate mail. The report also noted that, during the
                       audit, changes to the measurement system were made and
                       process improvements were implemented which were
                       service driven rather than measurement system driven.




                                                   3
                                        Restricted Information
Critical Factors and Best Practices for Managing                                                       TD-AR-02-001
 External First-Class Mail Measurement System Scores


                                             AUDIT RESULTS
Factors Identified as              Postal Service management in the clusters visited identified
Critical to Meeting                several factors impacting processing that they believed are
Service Standards                  critical to meeting service standards. Officials generally
                                   agreed that these factors impacted External First-Class Mail
                                   Measurement System service standard scores. The
                                   identified factors included commercial airline performance,
                                   mail preparation as well as mail condition and arrival times,
                                   adequate facilities, management stability, and staffing.

Commercial Airline                 Officials in all clusters visited identified commercial airline
Performance                        performance as a major factor in their ability to meet
                                   External First-Class Mail Measurement System service
                                   standard scores. Airline performance issues identified by
                                   officials as having an impact on External First-Class Mail
                                   Measurement System scores included tracking system
                                   limitations, the airline’s practice of rerouting and rehandling
                                   mail, ineffective performance penalties in the airline
                                   contract, and airline capacity and lift limitations at certain
                                   locations.

                                   Tracking System - A major factor in the Postal Service’s
                                   ability to control the flow of mail in the hands of airlines is
                                   the need for a real-time tracking system to determine the
                                   status of mail once it has been tendered to the airlines.
                                   According to officials, the current system does not provide
                                   for that capability. Officials recognized the importance of
                                   taking prompt action to get mail to its destination when there
                                   are airline delays, cancellations, or rerouting.

                                   Mail Rerouting and Handling - Another factor that emerged
                                   was the Postal Service’s inability to control rerouting and
                                   handling of mail while in the hands of the airlines. Airlines
                                   often rescheduled flights3 and rerouted mail, resulting in
                                   additional handling and impacting on-time delivery.4
                                   Officials cited instances where mail, assigned to airlines and
                                   not moved, was sometimes staged outdoors with no
                                   protection. They stated that this resulted in damaged mail
                                   and required extra processing time, based on the severity of
                                   damage. Officials acknowledged the need to work with

3
  Airlines rescheduled flights because of inclement weather, labor issues, mechanical problems, and increased 

passenger loads. 

4
  Officials in the sites visited informed us that rerouting of mail was a common practice in the Chicago-O’Hare, 

Atlanta-Hartsfield, Pittsburgh International, Dallas/Ft.Worth, and Denver International Airport mail hubs. 




                                                          4
                                               Restricted Information
Critical Factors and Best Practices for Managing                                                     TD-AR-02-001
 External First-Class Mail Measurement System Scores


                                  airlines to limit rescheduling and additional mail handling so
                                  as to assure timely delivery of mail.

                                  Airline Contract Issues - An additional factor appeared to
                                  be that the Postal Service needs the ability to adequately
                                  penalize airlines for poor performance. Officials interviewed
                                  stated that the Postal Services’ current airline contract
                                  provides only minimal penalties, restricted to violations for
                                  damaged mail. Also, there are no penalties for late arriving
                                  mail. Officials interviewed believed that stronger
                                  nonperformance penalties and enforcement of contract
                                  provisions would help ensure airline compliance and
                                  improve service standards.

                                  Capacity and Lift - Officials at some locations identified
                                  limitations in the ability of airlines to handle mail volume due
                                  to capacity and lift of aircraft. Officials stated that certain
                                  airports5 could not accommodate “wide body”6 planes,
                                  which resulted in an inability to handle large volumes of
                                  mail. This resulted in extra handling of the mail, since mail
                                  had to be rerouted to surface transportation or be broken
                                  down into smaller containers. Officials acknowledged the
                                  need to control these limitations in order to effect timely
                                  delivery of mail and meet service standards.

Mail Preparation,                 According to processing plant and delivery unit officials,
Condition, and Arrival            proper mail preparation and arrival times are critical factors
Times                             in assuring mail meets service standards. Specifically,
                                  officials stated collection mail within clusters sometimes
                                  arrived past scheduled times for induction into the mail
                                  stream and that mail was not always properly prepared
                                  requiring further culling7 by the processing plant. The
                                  clusters' ability to manage mail preparation, condition, and
                                  arrival times would help ensure mail is processed timely in
                                  order to reach its destination timely.

                                  Concerns with improperly prepared,8 missent or late arriving
                                  mail from outside clusters also existed among destinating
                                  processing plants, delivery units, and airmail facilities. This
                                  concern was compounded in those clusters with multiple

5
  Service is especially impacted in airports serving Appalachian, Albuquerque, and San Jose clusters. 

6
  Planes capable of loading and carrying containers.
7
  Culling removes non-letter mail (such as small parcels) from letter mail; segregates nonautomation compatible mail

from automation compatible mail, and segregates flats from other letter mailpieces. 

8
  Improperly prepared mail includes mis-sequenced, missorted, and mixed mail. 




                                                         5
                                              Restricted Information
Critical Factors and Best Practices for Managing                                  TD-AR-02-001
 External First-Class Mail Measurement System Scores


                             processing plants, since mail sometimes arrived at the
                             incorrect plant, which resulted in additional transportation
                             and processing time. Improperly prepared or late arriving
                             mail could ultimately result in delayed or missed delivery
                             and compromises service standard commitment times.
                             Officials acknowledged the need for effective
                             communication with other clusters in correcting these
                             concerns.

Adequate Facilities	         According to Postal Service officials, strategically located
                             facilities with optimal operation space are important to
                             assuring mail is efficiently processed. Officials observed
                             that crowded facilities, as well as facilities not strategically
                             located to support ease of access, resulted in untimely or
                             delayed mail processing. They further believed that these
                             factors potentially lowered External First-Class Mail
                             Measurement System scores. Further, some officials stated
                             that overcrowded facilities were operating well over capacity
                             and workflow/equipment layouts were not always conducive
                             to efficient and effective mail processing.

                             For example, regarding strategic location, we observed that
                             the San Francisco, California, airmail facility was under
                             renovation. Officials noted that as a result, operations had
                             to be spread across three locations – the San Francisco
                             international mail service facility, the San Francisco airport
                             temporary facility, and the San Jose airport cargo facility.
                             Officials believed that spreading these operations resulted
                             in additional processing time, which potentially
                             compromised service standard scores. In addition, the San
                             Jose airport facility was not designed to serve as an airport
                             mail facility or handle the current mail volume.

                             In another instance, the North Metro Processing and
                             Distribution Center in Atlanta, responsible for processing
                             mail for delivery units throughout north Georgia (except the
                             city of Atlanta), is not strategically located. The facility
                             serves delivery units, which could be better served by
                             another processing plant in closer proximity to the units.
                             North Metro's location results in mail being transported for
                             longer distances, taking longer time to reach destinations,
                             and can reduce the opportunity to timely process mail. This
                             was further complicated by traffic congestion to and from
                             the North Metro location. Officials recognized that
                             controlling the strategic location of facilities is key to



                                                   6
                                        Restricted Information
Critical Factors and Best Practices for Managing                                 TD-AR-02-001
 External First-Class Mail Measurement System Scores



                             meeting service standards and requested an additional
                             facility, in part, to alleviate this problem.

                             Regarding crowded facilities, in the Salinas, California,
                             processing and distribution facility, machinery and
                             equipment were so closely placed that it prevented
                             simultaneous operation of contiguous equipment. Also,
                             tents and trailers were used to store and prepare parcels
                             and to conduct other less significant mail processing. In
                             addition, in one Alpharetta, Georgia, delivery unit, mobile
                             trailers were used to process mail for carriers due to
                             significant growth in mail volume and routes, resulting in
                             additional mail handling and difficulty in accessing dock
                             space. Volume growth at the facility had also resulted in
                             insufficient dock space.

                             In addition, officials at the San Jose Processing and
                             Distribution Center had to reconfigure their floor plan and
                             workflow, move some of the plant operations to delivery
                             units, add temporary tents, and erect an annex for airmail
                             processing operations. Also the workroom floor layout in
                             the San Jose plant did not support the logical sequencing of
                             mail flow for a period of time. Officials stated that the
                             improper configuration and equipment layout impacted
                             processing.

Management Stability         Postal Service officials are aware that their ability to
and Staffing                 effectively address human resource factors is important to
                             timely mail processing and in meeting service standards.
                             Officials identified management turnover, complement
                             planning, and retention of equipment maintenance staff and
                             carriers as potentially impacting External First-Class
                             Measurement System service standard scores.

                             Management Stability - Two clusters included in our audit
                             had experienced more than 2 years of continuous “acting
                             district manager” appointments as well as extended acting
                             assignments of other key officials. According to officials,
                             this type of management instability impeded their ability to
                             consistently address service standard commitment issues
                             and implement process improvement practices.

                             Staffing to Complement - Postal Service officials in three of
                             the clusters visited informed us that they experienced



                                                   7
                                        Restricted Information
Critical Factors and Best Practices for Managing                                                      TD-AR-02-001
 External First-Class Mail Measurement System Scores


                                    challenges in staffing to complement.9 Some geographic
                                    areas have difficulty hiring and maintaining qualified staff,
                                    including carriers, because of strong economic conditions,
                                    high population growth, and a lack of a competitive pay
                                    structure. They noted that the lengthy hiring and “bid”
                                    process further exacerbated this situation.

                                    Staff Retention - Postal Service officials in two of the
                                    clusters visited stated they were not able to retain skilled
                                    equipment maintenance staff or rural carriers. Officials
                                    were particularly concerned with the inability to retain
                                    equipment maintenance personnel because of competition
                                    with the private sector. Officials further noted that internal
                                    development programs allowed lower skilled personnel to
                                    receive training paid for by the Postal Service. However,
                                    the Postal Service's training program does not mandate a
                                    time period for staff to work after being trained. As a result,
                                    trained staff may leave for higher paying positions after
                                    being trained. According to officials, this practice has
                                    potentially affected short-term efficiencies and operations.




9
    The OIG is currently looking into the “staffing to complement” issues as part of Project Number 01JA009LB000.



                                                           8
                                                Restricted Information
Critical Factors and Best Practices for Managing                                TD-AR-02-001
 External First-Class Mail Measurement System Scores




Best Practices for           Based on our meetings and observations at the clusters
Controlling Factors          visited, we identified a number of practices that officials
Affecting Service            identified as key to controlling factors affecting service
Standard Scores              standard scores. Implemented practices, which officials
                             used to control processes affecting service standard scores,
                             included the use of surface hub and spoke operations as
                             well as dedicated and centralized collection routes. These
                             practices existed in all clusters, but were implemented to
                             varying degrees. We also found other practices, which
                             were unique to specific clusters and implemented to
                             address processing challenges that officials believed were
                             important to realizing improvements in service standards.
                             The significant locally-implemented initiatives included:
                             Chicago’s Collect-to-Cancel, Mail Analysis Center and
                             Metro Movers; the deployment of delivery point sequencing
                             equipment to outlying areas in Atlanta, Albuquerque, and
                             San Jose; the Western Areas Pride and Excellence System;
                             and Chicago’s Blue Room. Finally, officials cited the use of
                             process management techniques as beneficial to assessing
                             needed changes and understanding how to implement
                             these changes to positively improve service standard
                             scores.

Surface Hubs and             Four of the five clusters visited relied on the surface hub
Control Center Helped        and spoke operations to mitigate the effect of poor
Clusters Control             commercial airline performance on meeting External
Commercial Air               First-Class Mail Measurement System service standard
Transportation               scores. Surface hubs are a central point where mail for a
Challenges                   group of offices could be unloaded from a series of
                             incoming trips and massed according to their destination.
                             Using this operation allows the cluster to have better control
                             in meeting service standards depending on distances.
                             Officials stated that this was especially important because of
                             problems with commercial airline performance.

                             The Western Area initiated the Denver Control Center to
                             improve the coordination of air transportation resources
                             destined for locations within the Western Area, including the
                             Albuquerque cluster. All the commercial air flights within the
                             area are tracked by the center in Denver and any problems
                             in those flights are coordinated with other areas that have
                             coverage. This facility is designed to improve 2 to 3-day
                             service standard scores by providing destinations, including
                             those with few air transit options like Albuquerque, more



                                                   9
                                        Restricted Information
Critical Factors and Best Practices for Managing                                   TD-AR-02-001
 External First-Class Mail Measurement System Scores


                             information about flight delays and the ability to adjust their
                             scheduling as necessary. This facility also deals with
                             problems caused by poor weather nationwide. The center
                             is staffed by area transportation personnel and has
                             communication links to the other areas and commercial
                             airlines.

Collection and               According to officials in all clusters we visited, the use of
Induction Strategies         dedicated collection routes enabled them to specifically
Are Key in Controlling       assign carriers to collect mail in a consistent and timely
Mail Condition and           manner. In addition, carriers are required to scan collection
Arrival Times                box bar codes in an effort to ensure all collection boxes are
                             checked for mail and that they are checked within their
                             scheduled collection times.

                             The implementation of the "Collect-to-Cancel" initiative in
                             Chicago helped the cluster to focus on collection processes
                             with the intent of improving the percentage of mail cancelled
                             at the plant by 6:00 p.m. Officials believed that the higher
                             the percentage of mail cancelled by 6:00 p.m., the greater
                             the opportunity for the plant to meet clearance times, since
                             mail reached downstream processing earlier. This initiative
                             emphasized communication, training, collection times,
                             monitoring, and transportation. Officials attributed this
                             effort, in part, to helping improve their service standard
                             scores.

                             Another initiative identified in our audit was the "Mail
                             Analysis Center" in the Chicago cluster. This center was
                             designed to identify and reroute missent mail to its proper
                             destination. According to officials, this saved time in
                             processing, since mail items were labeled and segregated
                             from other normal mail. Although the cluster scaled down
                             this effort because of cost factors, it was identified by the
                             cluster officials as a contributing factor in External
                             First-Class Mail Measurement System score improvement.

                             The implementation of the "Metro Movers" initiative by the
                             Chicago cluster helped to improve 2 to 3-day service
                             scores. Through this initiative, the cluster identified root
                             causes for not meeting service standards. Part of the
                             recommended solution was to treat 2-day mail as overnight
                             commitment mail. Treating 2-day mail as overnight
                             increased the chances of mail in meeting its scheduled
                             delivery time, since overnight committed mail takes



                                                  10
                                        Restricted Information
Critical Factors and Best Practices for Managing                                 TD-AR-02-001
 External First-Class Mail Measurement System Scores


                             precedence over 2 to 3-day committed mail. The focus of
                             this team was later expanded beyond Chicago metro into
                             surrounding clusters.

Equipment Deployment         To address facility space and strategic location constraints,
to Annex Sites               some clusters visited, in our audit deployed equipment,
Assisted in Managing         initially intended for processing and distribution centers, to
Facility Limitations         outlying locations, including annexes and delivery units.
                             Officials stated that deploying the equipment to outlying
                             locations reduced the amount of processing required at the
                             processing and distribution centers and relieved
                             overcrowding at the centers. In addition, this allowed mail
                             to be transported earlier to delivery units, thereby avoiding
                             transportation delays between the plant to delivery units
                             because of traffic congestion. This practice was more
                             prevalent in Albuquerque, San Jose, and Atlanta clusters.

Initiatives Designed to      The Western Area's "Pride in Excellence Program" is an
Control Resource             initiative that applies the balanced scorecard approach to
Challenges                   performance appraisals. Balanced scorecard includes
                             financial as well as nonfinancial measures and is a
                             mechanism that holds managers accountable for a wide
                             variety of operational issues and services. It consists of
                             five major categories: financial, customers, internal
                             business processes, learning and growth, and vision and
                             strategy. Each executive and manager is assessed
                             periodically using this system. According to officials, the
                             use of this approach helps ensure better control over
                             resource issues affecting service standards.

                             The "blue room" is being used in the Chicago cluster to
                             address staffing issues. The "blue room" is a staffing
                             technique that is used to apply consistent criteria and
                             standards in selecting staffing complements. According to
                             officials, this process also helps to identify and reduce labor
                             costs due to the delivery point sequencing process. The
                             delivery point sequencing data is analyzed as a source for
                             identification of necessary complement changes. Time and
                             attendance control programs, established to improve
                             overtime usage, supplement this complement model.
                             Officials in Chicago cited this program as an effective tool to
                             assure all staffing resource issues are identified and
                             addressed effectively.




                                                  11
                                        Restricted Information
Critical Factors and Best Practices for Managing                                 TD-AR-02-001
 External First-Class Mail Measurement System Scores



Use of Process               To provide consistent approaches to decision-making, the
Management Helps to          Postal Service implemented a process management
Improve Overall First-       initiative. This systematic approach to improve operations is
Class Mail Processing        based upon the principles of Total Quality Management.
                             Process management is a data driven methodology that
                             uses process mapping and data to make decisions. The
                             Postal Service has adopted this managerial approach to a
                             wide variety of operational processes in order to create
                             more systematic, comprehensive, and replicable solutions
                             to existing problems.

                             During our site visits, officials acknowledged the benefits of
                             this approach in helping the organization meet service
                             standards by improving decision-making. We found the
                             Chicago cluster utilized process management extensively in
                             their daily operations and attributed process management in
                             helping to achieve improved service standard scores.
                             However, this process is not consistently applied among the
                             five clusters we visited.

Service Standard             We found that the Postal Service had no formal mechanism
Benefits Could be            for identifying, assessing, and sharing best practices
Achieved Through             affecting service standard scores on a nationwide basis.
Nationwide Sharing of        Our audit did note that areas and clusters could share what
Best Practices               they believed were best practices via Postal Service
                             websites and other informal channels, and other areas and
                             clusters could access and use that information at will. We
                             believe that nationwide identification and sharing of best
                             practices could potentially ensure more consistent and
                             improved External First-Class Mail Measurement System
                             service standard scores. We recognize that the lack of such
                             a formal nationwide sharing of best practices is due, in part,
                             to the decentralized nature of the Postal Service. However,
                             opportunity exists for headquarters to play a role in the
                             nationwide identification and communication of best
                             practices.

Recommendation 	             We make the following recommendation to the chief
                             operating officer and executive vice president, and the
                             senior vice president, Operations:




                                                  12
                                        Restricted Information
Critical Factors and Best Practices for Managing                                  TD-AR-02-001
 External First-Class Mail Measurement System Scores



                                 1. The Postal Service could potentially derive benefits
                                    of consistent and improved External First-Class Mail
                                    Measurement System service standard scores by
                                    exploring prospects for facilitating the identification
                                    and sharing of best practice information nationwide.

Management’s                 Management agreed with our findings and recommendation.
Comments                     They stated the critical factors identified in our audit
                             potentially affect External First-Class scores and that they
                             are presently addressing factors they characterized as both
                             internal and external to the Postal Service. Management
                             also:

                             •	 Agreed there were no formal mechanisms for identifying,
                                assessing, and sharing best practices on a nationwide
                                basis.

                             •	 Stated they would utilize existing national web sites to
                                display proven service improvement practices.

                             •	 Stated they would integrate those practices into ongoing
                                standardization and productivity improvement efforts.

                             Management also indicated they expected to complete our
                             recommended action within the next 12 months, and finally,
                             made several minor comments about wording in our report.
                             We concurred with management’s comments about
                             wording, and modified our report accordingly.

Evaluation of                Management’s comments are responsive to our findings
Management’s                 and recommendation. We believe the actions management
Comments                     has taken or planned will effectively address issues we
                             identified in our report.




                                                  13
                                        Restricted Information
Critical Factors and Best Practices for Managing                 TD-AR-02-001
 External First-Class Mail Measurement System Scores


                    APPENDIX. MANAGEMENT’S COMMENTS




                                                  14
                                        Restricted Information
Critical Factors and Best Practices for Managing                 TD-AR-02-001
 External First-Class Mail Measurement System Scores




                                                  15
                                        Restricted Information
